OPPORTUNITIES TO STRENGTHEN
CONTROLS TO AVOID UNDUE
EXTERNAL INFLUENCE OVER
CAPITAL PURCHASE PROGRAM
DECISION-MAKING




                        SIGTARP-09-002
                          AUGUST 6, 2009
                                                            August 6, 2009
                  SIGTARP                                   Opportunities To Strengthen Controls To Avoid Undue External
                                                            Influence over Capital Purchase Program Decision-Making
                  Office of the Special Inspector General
                  for the Troubled Asset Relief Program
                                                            What SIGTARP Found
                                                      The Department of the Treasury (“Treasury”) and the federal banking agencies
Summary of Report: SIGTARP-09-002                     have various process and documentation controls in place to limit the extent to
                                                      which external parties can affect the CPP decision-making process. The CPP
Why SIGTARP Did This Study                            investment approval process, for example, comprises multiple levels of review
In October 2008, the Department of the Treasury
                                                      that limit any one person’s ability to influence decisions. The review process also
established the Capital Purchase Program (“CPP”)
to inject capital into healthy, viable U.S. financial contains several organizational and documentation controls that help prevent
institutions to stabilize financial markets and       undue influence by facilitating objective decision-making. Although it is mostly a
increase lending. The Office of Financial Stability clear process enhanced by multiple reviews and control mechanisms, SIGTARP
(“OFS”) and the banking regulators—Office of the found two controls that should be improved to increase transparency and help
Comptroller of the Currency (“OCC”), Office of        mitigate the risk of any undue influence on the process. First, it was not clear from
Thrift Supervision (“OTS”), Federal Deposit           the minutes of Treasury’s Investment Committee meetings how each member
Insurance Corporation (“FDIC”), and Federal           voted on each application. Clearer documentation of decision-making would help
Reserve Board (“FRB”)—implemented a                   strengthen the transparency of the process. Second, although Treasury and the
standardized process to review applications from      banking agencies have processes for documenting and responding to written
institutions. More than 2,700 institutions have
                                                      external inquiries, not all have processes to document oral communication, such
submitted applications to regulators for CPP
funding, and regulators have submitted about
                                                      as telephone conversations and in-person meetings. We found limitations and
1,300 to Treasury for review. As of July 30, 2009, inconsistencies in the logging of telephone and meeting conversations regarding
Treasury had funded 660 applications.                 individual CPP applicants, for example, making it impossible to examine the
                                                      impact of all potential external inquiries on the CPP process.
This audit addresses (1) the extent to which
Treasury and the banking regulators have controls
                                                   Available information gave little indication that external inquiries on CPP
to safeguard against external influence over the
CPP decision-making process, and (2) any           applications had affected the decision-making process. Of the 56 institutions
indications of external parties having unduly      SIGTARP identified that were the subjects of external inquiries concerning a
influenced CPP decision-making.                    potential or actual application, our analysis showed that, as of June 17, 2009, only
                                                   16 applications (29 percent) had been funded, 12 (21 percent) were still pending
We reviewed Treasury and regulatory policies,
                                                   within Treasury or a banking agency, and 26 (47 percent) did not receive CPP
collected documents that recorded external
communication, and interviewed officials to
                                                   funds because the institutions either withdrew or were recommended to withdraw
identify the controls over external communication. their applications, failed or were acquired during the application review process.
To determine possible indications of external      Two institutions did not formally submit applications for funds.
influence, we reviewed the CPP application and              Status of CPP Applications SIGTARP Reviewed Involving External Inquiries
supporting documents for all institutions in which                                                           Number of
SIGTARP found an external inquiry. Our work                  Category                                       Institutions     Percentage
was performed in accordance with generally                   Applications Funded                                     16              29
accepted government auditing standards.                      Applications Still Pending                              12              21

What SIGTARP Recommends                                      Applications Not Funded
To further guard against outside influence and to        Withdrawn or Withdrawal Recommended                      19      34
improve transparency, SIGTARP recommends that            Institution Failed or Was Acquired                        7      13
(1) Treasury record the vote count for Investment        Subtotal for Applications Not Funded                     26      47
Committee decisions; and (2) Treasury and each                                                                     2       3
                                                   Institutions Did Not Apply for CPP
individual participating federal banking agency
                                                   Total                                                          56   100%
improve existing control systems to document the
                                                  Source: SIGTARP analysis of Treasury and banking agencies data.
occurrence and nature of external oral            Note: See page 14 of the report. Numbers affected by rounding.
communication about actual and potential
recipients of funding under the CPP and other     SIGTARP’s analysis of the funded applications showed that 13 of the 16 clearly
similar TARP assistance programs to which they    met all of the criteria established by Treasury. The remaining three institutions did
may be part of the decision-making.               not meet all the CPP quantitative criteria but were approved based on mitigating
SIGTARP received official written responses on              factors considered by Treasury and banking agency officials. For example, one
this report from OFS, FRB, FDIC, and OCC. OTS               application’s approval was contingent on the institution raising additional capital
did not provide written comments on this report.            to bring it to a well-capitalized position, and another application’s approval
Three agencies addressed SIGTARP’s                          focused on the bank’s management plan to address a weak ratio. These mitigating
recommendations while two did not comment on                factors were not unique to institutions that were the subject of an external inquiry.
them. OFS, as the lead agency for the CPP,                  SIGTARP found unique mitigating factors affecting one institution. With respect
concurred with the recommendations, and said that           to that institution, SIGTARP’s analysis indicated that discretion afforded this
it is in the process of implementing them. A fuller         applicant in its approval was greater than that accorded other applications, but still
discussion of these responses is contained in the
                                                            consistent with applicable statutory requirements.
Management Comments and Audit Response
section of this report.                                           Special Inspector General for the Troubled Asset Relief Program
Table of Contents
Introduction                                                    1

Opportunities to Strengthen Controls to Avoid Undue External
Influence over Capital Purchase Program Decision-Making        4

Although Most Decisions to Fund Applicants Were Clear, Some
Had Mitigating Factors                                         14

Conclusions and Recommendations                                19

Management Comments and Audit Response                         21

Appendices
      A. Scope and Methodology                                 23

      B. Review Rounds for CPP Process                         25

      C. Case Decision Memo Template                           26

      D. CPP Council Voting Record                             28

      E. Analyst Scorecard Template                            29

      F. Acronyms                                              30

      G. Audit Team Members                                    31

      H. Management Comments (OFS)                             32

      I. Management Comments (FDIC)                            33

      J. Management Comments (OCC)                             34

      K. Management Comments (FRB)                             35
                  OPPORTUNITIES TO STRENGTHEN CONTROLS TO
                  AVOID UNDUE EXTERNAL INFLUENCE OVER
                  CAPITAL PURCHASE PROGRAM DECISION-MAKING

                  SIGTARP REPORT 09-002                                  AUGUST 6, 2009


Introduction
Of the $700 billion made available through the Troubled Asset Relief Program (“TARP”), the
Department of the Treasury (“Treasury”) had invested, as of July 30, 2009, approximately $204
billion for the purchase of preferred shares and warrants from institutions participating in the
Capital Purchase Program (“CPP”). The CPP is a $218 billion 1 program designed to strengthen
financial markets and increase lending by making capital investments in viable, healthy financial
institutions. Launched at the height of the financial crisis facing the United States in the fall of
2008, this program’s significance and the amount of investment involved suggest the need for
funding decisions to be based on sound and objective criteria, free of external influences.
Various press reports have raised questions about whether external influence could have had
some effect on Treasury’s decision to award TARP funds to particular financial institutions.

On January 27, 2009, the Secretary of the Treasury announced plans to implement new rules
designed to limit external influence over the TARP process and ensure that only objective
assessments guide investment decisions. Formal rules or regulations have not yet been released.


Background
Treasury formally announced the CPP on October 14, 2008, one day after the first nine
institutions already had agreed, during a meeting with the Secretary of the Treasury, to
participate in the program. Faced with a potential collapse of the financial markets, the first nine
financial institutions agreed to accept funding under the CPP on an emergency basis before
procedures were fully in place that would ultimately guide the program’s application review
process. 2 After the first nine were approved for CPP funding, Treasury required financial
institutions to submit an application in order to be considered for capital investments under the
program. On October 20, 2008, Secretary Paulson announced that Treasury had “worked with
the regulators to establish streamlined evaluations.” Further, he clarified that all regulators would
“use a standardized process to review all applications to ensure consistency.”




1
  Treasury originally announced that the CPP would be a $250 billion program, but, on March 30, 2009, stated that it
now forecasts only expending $218 billion.
2
  SIGTARP has a separate review underway examining funding of the first nine banks with a special focus on the
funding of Bank of America and Merrill Lynch. That report is expected to be issued in September 2009.

                                                         1
Accordingly, Treasury issued guidance on criteria to be used by the four federal banking
agencies (“FBAs”) to assess the viability of institutions applying for CPP funds. These regulators
are:

    •   Federal Deposit Insurance Corporation (“FDIC”)
    •   Office of the Comptroller of the Currency (“OCC”)
    •   Federal Reserve Board (“FRB”)
    •   Office of Thrift Supervision (“OTS”)

The FBAs, to date, have received and reviewed more than 2,700 applications under this
guidance. Treasury officials estimated that, as of July 14, 2009, they had approximately 120
applications preliminarily approved but not funded at Treasury and 40 pending review at the
regulatory level. Applications may still be submitted until November 21, 2009.

The process begins when a financial institution submits an application to its primary federal
regulator. Table 1 provides the types of institutions regulated by each of the FBAs as well as
some of the FBAs’ other functions.

Table 1: Role of the Regulators

FBA          Regulatory Functions                             Other Roles
FDIC         Examines and supervises state-chartered          Insures deposits of member banks and is
             banks that do not belong to the Federal          funded by premiums that banks and thrift
             Reserve System                                   institutions pay for deposit insurance
                                                              coverage and from earnings on investments
                                                              in Treasuries
OCC          Examines and supervises all nationally           Supervises the federal branches and
             chartered banks                                  agencies of foreign banks
FRB          Regulates all bank holding companies and         Conducts the nation’s monetary policy and
             state-chartered banks that are members of        provides official services to depository
             the Federal Reserve System                       institutions, the U.S. government, and
                                                              foreign financial institutions
OTS          Supervises the national thrifts, which include
             federal savings and loans and federal
             savings banks
Source: OCC, OTS, FDIC, and FRB websites.



Upon receipt of a CPP application, the FBA provides an initial screening and determines whether
to forward the application for Treasury’s review. Prior to forwarding, the regulator may send the
application to an interagency CPP Council where a representative from each of the four FBAs
evaluates and votes on the application. At Treasury, before receiving final approval from the
Assistant Secretary for Financial Stability (the head of Treasury’s Office of Financial Stability
(“OFS”)), each approved application must receive a majority vote from an Investment
Committee that comprises three to five senior Treasury officials.



                                                    2
Eligibility for CPP funds is based on an assessment of the strength and viability of each
applicant, measured by examination ratings, performance ratios, and mitigating factors, without
taking into account the potential impact of TARP funds. Treasury had funded 660 institutions as
of July 30, 2009.


Objectives
This audit examines the extent to which external parties may have sought to influence Treasury
or the FBAs in their considerations of and decisions on applications from individual financial
institutions seeking funds from the CPP. Specifically, the report addresses these questions:

   •   To what extent do Treasury and the federal banking regulators have controls to safeguard
       against external influences over the CPP investment decision process?

   •   Were there indications of external parties having influenced decision-making by Treasury
       and the federal banking regulators regarding CPP applications?

For a discussion of the audit scope and methodology, as well as a summary of prior coverage,
see Appendix A. For an overview of the levels of review throughout the CPP process, see
Appendix B. For copies of documentation controls referenced throughout this report, see
Appendices C–E. For the acronyms, see Appendix F. For the audit team members, see Appendix
G. For a copy of comments from the FBAs and Treasury, see Appendices H–K.




                                               3
Opportunities to Strengthen Controls to Avoid
Undue External Influence on CPP Decision-Making
Treasury and the FBAs have various process and documentation controls in place to limit the
extent to which external parties can affect the CPP decision-making process. The CPP
investment approval process comprises multiple levels of review that limit any one person’s
ability to influence decisions. The review process also contains several documentation controls
that help prevent undue influence by facilitating objective decision-making. Although it is
mostly a clear process enhanced by control mechanisms, SIGTARP found two controls that
should be improved to increase transparency and help mitigate the risk of any undue influence on
the process.

First, it was not clear from the minutes of Treasury’s Investment Committee meetings how each
Investment Committee member voted on each application. Second, although Treasury and the
banking agencies have processes for documenting and responding to written external inquiries,
not all have procedures to document oral communications with external parties when discussing
TARP funds. We found limitations and inconsistencies in the logging of oral telephone and
meeting conversations regarding individual CPP applicants.


Regulators and Treasury Provide Multiple Levels of Review
throughout the CPP Decision-Making Process
Each financial institution applying for CPP funds submits an application to its respective
regional FBA, where the review process begins prior to any consideration by Treasury for actual
funding. For applications that pass this initial screening, the review process either continues at
Treasury or passes through an interagency review process in which the four primary regulators
provide an additional review of the case. The review process ends with the Assistant Secretary
for Financial Stability, who has the final approval for all applications. Figure 1 presents a general
flow of the CPP approval process, shows the different paths taken at the regulator level, and
depicts the extent to which applications can move forward or be pushed back throughout the
process. For a summary of the different levels of review and approvals needed to fund an
application, see Appendix B.




                                                 4
Figure 1: Treasury and FBA Review Process for CPP Applications




      Analyst reviewers assist the senior decision-makers in developing the facts of the case and answering questions

      Senior decision-makers approve the recommendation before the application moves to the next stage

      Final approval for funding is made by the Assistant Secretary for Financial Stability

      Application withdrawal (either independent or recommended by the FBA or Treasury) can occur at any stage of the process


Note: This figure presents a general flow of the CPP approval process. There are some process flow variations
across the regulators before applications move to the interagency review stage. There also are process flow
variations on a case by case basis depending on the unique circumstances of an application.
Source: SIGTARP interviews and analysis of process documentation provided by OFS, OCC, FDIC, OTS, and FRB.


First Level: Regional Offices of the Regulators Prepare the Case
Decision Memo
Upon receipt of an application from a financial institution, the region/district level office of an
individual regulatory agency reviews the application and completes a case decision memo
(“CDM”). For a template of the CDM, see Appendix C. Assessments recorded on the CDM
include quantitative factors, such as the CAMELS rating, 3 Community Reinvestment Act
(“CRA”) rating, 4 three performance ratios (related to classified assets, non-performing loans,

3
  A CAMELS rating is a nonpublic rating assigned to a financial institution by its primary regulator that measures an
institution’s Capital adequacy, Asset quality, Management, Earnings, Liquidity, and Sensitivity to market risk. The
lower the CAMELS rating, i.e., the closer it is to 1, the more stable an institution is.
4
  A Community Reinvestment Act (“CRA”) rating is a measure of financial performance in the context of
information about the institution (financial condition and business strategies), its community (demographic and

                                                                 5
other real estate owned, and construction and development loans), and three capital ratios. Using
quantitative factors, each regulator classifies the applicant based on the initial assessment of
strength and viability. Applicants classified as Category 1 institutions have stronger performance
measures than those identified as Category 3. Table 2 provides the characteristics of each of the
category classifications used by the regulators to facilitate the CPP review process.

Table 2: Regulator Categories of Applications for CPP

Category            Qualifying Criteria
     1              •   Composite CAMELS/RFI rating of “1”
                    •   Composite CAMELS/RFI rating of “2” and for which the most recent examination
                        rating is not more than 6 months old. The most recent exam should be conducted or
                        confirmed by the regulator.
                    •   Composite rating of “2” or “3” and acceptable performance ratios
        2a          •   Composite CAMELS/RFIb rating of “2” and for which most recent examination rating
                        (as determined or confirmed by the regulator) is more than 6 months old and overall
                        unacceptable ratios
                    •   Composite CAMELS/RFI rating of “3” with overall unacceptable performance ratios
        3           • Composite CAMELS/RFI rating of “4”
                    • Composite CAMELS/RFI rating of “5”
Source: Treasury guidance to regulators.
Notes: This table represents the initial set of guidelines Treasury provided to the regulators. These guidelines served
as a baseline for the review of institutions and were adjusted somewhat as the review process evolved.
a. Relatively early in the CPP application review process, Treasury provided the regulators informal guidance to
classify all institutions with Composite CAMELS rating of “3” as Category 2 institutions for purposes of program
consideration.
b. The regulators use the RFI (Risk management, Financial condition, Impact of parent company and non-depository
entities on subsidiary depository institutions) rating system to assess bank and financial holding companies.

In addition to recording quantitative ratios on the CDM, the regulator reviews and documents
selected qualitative aspects for each applicant. During the course of our review, a Treasury
official noted that the decision-makers engage in more discussion on qualitative, mitigating
factors when there are weaker quantitative measurements for a particular institution. Treasury
and regulatory officials noted the following mitigating factors that weighed in favor of granting
an application:

    •        the existence of a merger agreement involving the applicant
    •        possible adverse effect of write-downs 5 on government-sponsored entities stocks
    •        ability of an institution to raise outside capital


economic data), and its competitors. Upon completion of a CRA examination, each FBA rates the overall CRA
performance of the financial institution using a four-tiered rating system: Outstanding, Satisfactory, Needs to
Improve, and Substantial Noncompliance.
5
  A write-down occurs when an institution reduces the value at which it records an asset on its financial statements
to reflect a decline in the asset’s value. For example, the value of Fannie Mae and Freddie Mac stock dropped when
the two government-sponsored entities were placed in conservatorship in September 2008. This event required
institutions holding the stock to write-down the losses related to the stock’s drop in value.

                                                          6
    •   an applicant’s plans to address areas of concern
    •   regional considerations regarding loan concentrations
    •   cash position and ability of the institution to pay the CPP dividend required as a condition
        of receiving funds

After the analyst completes the assessment, a senior decision maker reviews the CDM before the
applicant’s file moves from the region/district level to the Washington, D.C. (“D.C.”)
headquarters office of the regulator. 6

Second Level: D.C. Headquarters of the Regulators Determine Next
Steps in the Application’s Review Path
After it completes its assessment, the region/district office forwards the preliminary
recommendation to approve or not approve the institution to the regulator’s D.C. headquarters.
According to the regulators, there are multiple levels of review within the headquarters.
Generally, D.C. headquarters staff members perform a quality-control review of the
recommendation for action submitted by the region/district office, and senior decision-makers
approve the recommendation for action. For example, one regulator has at least three senior
reviewers approve the application before it can be sent to Treasury. From the regulator
headquarters, Category 1 institutions generally are sent directly to Treasury for review. 7 The
D.C. headquarters usually suggest Category 3 institutions withdraw their applications. 8 For those
Category 2 and 3 institutions that are not recommended for withdrawal, the application is
reviewed at the next, interagency level, where all four regulators weigh in on the viability of the
applicant. Treasury also may decide to refer an application that it has received from the
regulators to the interagency review process.

Third Level: Interagency Process Provides Additional Level of
Review When Viability Is Unclear
Category 2 and 3 applicants as well as institutions referred by Treasury receive additional
reviews at the CPP Council, an interagency review committee with four senior supervisory
officials who oversee institutions for their respective agencies. According to its charter, the CPP
Council serves as a “deliberative body that will provide recommendations to Treasury on
applicants whose condition or supervisory record pose exceptions or unique issues to the
participation guidelines set forth by Treasury and the banking agencies.” A Treasury
representative may observe the CPP Council discussions but cannot vote on final
recommendations of the CPP Council.

6
  There were variations among the regulators regarding the number of reviews at the region/district level. One
regulator also conducts a review at the field level.
7
  One regulator official noted that, in some cases, even Category 1 applications have gone to the CPP Council. There
are variations based on the circumstances of the case.
8
  The FBAs and OFS may recommend withdrawal at any stage beyond the region/district level. Regardless of
whether it is recommended by Treasury or the regulators, applicants may voluntarily withdraw at any point in the
process.

                                                         7
The CPP Council is intended to be a forum for expert discussion where a regulator presents an
application under its purview to the other regulators. The CPP Council votes on the viability of
the institution based on the quantitative and qualitative factors of the case, and it may defer this
vote until additional information can be provided in support of the applicant by its primary
regulator. The CPP Council forwards to Treasury a recommendation on any application with a
majority vote in favor of approval. A regulatory official noted that the Treasury in practice
generally does not approve applications for funding without a unanimous or 3-to-1 vote from the
CPP Council. The CPP Council can send the application back to the previous level if questions
regarding the institution’s viability remain.

Category 2 and 3 applicants requesting less than $50 million are eligible for notational electronic
voting by the CPP Council representatives in advance of a formal Council meeting. Accordingly,
each of the four regulators independently reviews the CDM and submits an electronic vote to the
OCC representative, who chairs the CPP Council. The chairman determines, based on the tally of
votes, whether the case is recommended for approval, denial, or remand to a formal Council
meeting for further discussion. All four regulators must unanimously agree on approval during a
notational vote in order for the application to move forward to Treasury.

Final Level: Treasury Performs Assessment and Determines Final
Approval
Upon receipt of an application from the regulators, Treasury analysts review the application and
CDM and prepare applications recommended for approval to Treasury’s Investment Committee,
which comprises senior Treasury officials who make the final recommendation to the Assistant
Secretary. 9 A file is assigned to a CPP team analyst when an application is received by Treasury.
The analyst reviews the regulators’ analysis and performs an independent evaluation of the
application. The analyst then forwards the assessment to a second analyst, who performs an
additional evaluation using the previous analyst’s work. Before the file is prepared for the
Investment Committee, a third senior analyst approves the team’s collective work. According to
Treasury officials, these three analysts have previous bank examination experience, which
strengthens the quality of the review at the Treasury level.

After their review is complete, CPP analysts present their cases to the Investment Committee,
which makes the final recommendation for funding approval to the Assistant Secretary.
Although the Assistant Secretary for Financial Stability has final approval authority, he has
participated at times on the Investment Committee, either in-person or through a designee. At
least three committee members discuss and submit their final recommendation on whether the
applicant should receive TARP funds. Applications move forward to final approval with a
minimum of a 2-to-1 vote. During the Investment Committee’s review, the members have the
right to send a file back to the CPP analysts, the CPP Council, or the primary regulator to obtain
clarification on the analysis provided.


9
  The Investment Committee consists of TARP’s Chief Investment Officer and senior Treasury officials from
financial markets, economic policy, financial institutions, and financial stability.

                                                       8
After the Investment Committee votes, the Assistant Secretary makes the final approval for
funding. Both regulatory and Treasury officials stressed that only the Assistant Secretary
approves the application and that all decisions up to that point are recommendations. At the time
SIGTARP was conducting this study, the Assistant Secretary had not rejected any
recommendation forwarded by the Investment Committee for approval.


Documentation Controls Exist Throughout the Application
Review Process, But One Control Could Be Improved
Although several documentation controls throughout the review process serve as safeguards to
prevent external influence and to facilitate objective decision-making, SIGTARP found one
instance where an improvement should be made regarding the documentation of Treasury’s
decisions.

Documentation controls used to help ensure adherence to the objective criteria of the CPP review
process include:

   •   Case Decision Memo – As noted above, the regulator starts a case decision memo
       (“CDM”) upon receipt of the application and completes the memo with information about
       the regulator’s recommendation before sending it to Treasury. The document records the
       quantitative and qualitative aspects of each applicant. By capturing the same ratios and
       requiring an elaboration of qualitative factors, this control helps reviewers conduct a
       relatively consistent assessment of applications. See Appendix C for this documentation
       control.

   •   CPP Council Review Decision Sheet – The CPP Council uses this sheet to record how
       each of the regulators voted on the viability of institutions that have been reviewed at the
       interagency level. The sheet also provides qualitative narratives, explaining any concerns
       that Council representatives would like to make known to Treasury. For a template of this
       documentation control, see Appendix D. In addition to the CDM, Treasury usually
       receives this document when the regulator forwards the case file.

   •   CPP Analyst Scorecard – Upon receipt of an application from the regulators, a Treasury
       analyst uses a scorecard to help ensure it meets the criteria for a forwarded application.
       This scorecard double checks the FBAs’ work and documents the extent to which each
       proposed application satisfies established objective criteria. For a template of this
       documentation control, see Appendix E.

   •   Meeting Minutes – These documented discussions and recommendations, made at the
       CPP Council and Investment Committee level, serve as a record that each application was
       considered based on the merits of its particular case.
Although the CPP Council records its vote on the CPP Council Review Decision Sheet,
SIGTARP found that the Investment Committee does not document its vote count as clearly and
consistently. According to informal Treasury guidance, a majority vote is needed for the


                                                9
Investment Committee to recommend approval to the Assistant Secretary, so it is possible that
approval is recommended for an institution with a 2-to-1 vote. Some of the Investment
Committee minutes record instances of dissenting votes; however, SIGTARP could not
determine the exact vote count in all cases. Treasury does not have Investment Committee
members initial a voting sheet like the decision sheet used by the CPP Council to record votes.
Although we did not identify any indications of external influence of Investment Committee
members, clearly documenting the vote count of the Investment Committee members could
strengthen the documentation of decisions and provide additional transparency as to when and
why there is a dissenting vote. A more transparent, documented trail of decision-making would
help minimize any appearance of external influence.


Controls Exist Regarding Documenting External Contacts,
But Improvement Needed Regarding Oral Communications
Additional safeguards are in place to minimize possible undue influence, including longstanding
operating procedures and an organizational culture that minimizes regulators’ discussions with
external parties about banks’ performance. Moreover, Treasury and the FBAs have various
processes in place to document external communications, in particular written communications.
Nonetheless, the extent to which institutions documented oral communications regarding TARP
applicants varied among regulators and Treasury.

Culture and Operating Procedures Undergird the Process
Some control mechanisms are part of the overall operating culture at the regulator level, which
assists in minimizing the information provided to all external parties. Several regulatory officials
stated that, historically, they had a strong culture of confidentiality over banking information that
discourages internal personnel from discussing applications with external parties. One regulator
noted that information related to bank examinations or applications is not discussed with any
external parties. Another regulator commented that the regulatory culture requires employees to
be careful with information. A regulator provided SIGTARP the guidance used to train
employees on identifying confidential information to help prevent sensitive data related to an
open institution from being released. On more than one occasion, officials reminded SIGTARP
that the release of sensitive information about an open financial institution is illegal.

The operating procedures of the CPP review team and other offices within the regulator provide
another layer of control to help mitigate undue external influence. Some officials stated that
Congressional and public affairs personnel—the front-line individuals responsible for receiving
and responding to many instances of correspondence with external parties—are shielded from
having contact with the review because they are not part of the CPP application review process.
Having Congressional and external affairs offices independent from the CPP teams provides a
degree of separation between external inquiries and the decision-making process. Those
individuals handling the responses to such inquiries generally were not involved in the review
process.




                                                 10
Written Inquiries Generally Documented, But Improvement Needed
for Oral Communications
SIGTARP found that, for the most part, Treasury and the FBAs logged and tracked written
correspondence from external parties; however, the consistency and detail in which organizations
documented oral communications from external parties related to CPP applicants varied across
organizations. Table 3 shows how many of the five organizations (Treasury, OCC, FDIC, OTS,
and FRB) had processes in place to document external inquiries from members of Congress, as
well as other external parties.


Table 3: Number of Organizations with Processes To
Document External Communication Related to CPP

Communication Type                           Number of Organizations
            Letters                                          5
Written
            Emails                                           4
            Telephone                                        3
Oral
            Meetings                                         1
Source: SIGTARP analysis of documentation provided by and interviews of
Treasury and FBA officials regarding the existence of a documentation process for
inquiries received from external parties.

Notes: The scope of this table does not include processes related to documenting
inquiries from financial institutions asking about logistical details regarding a
potential or existing CPP application. Organizations include the four regulators
and Treasury.


The type of communications documentation varied across the regulators and Treasury:

       •   Letters. Typically, the regulators and OFS document and track written letter
           correspondence received from external parties. Most organizations had a system in place
           to document the receipt, response, and approval of letters addressed to senior officials.
           Moreover, the responses to those written inquiries regarding CPP applications generally
           provided the same standard reply, which is that the application is under review and is
           being given due consideration. Both Treasury and regulatory officials noted that it is a
           general policy not to provide information regarding the specifics of an application to
           external parties.

       •   Emails. Regulatory and Treasury officials reported minimal emails regarding CPP
           applicants. One regulator and Treasury had established or designated email boxes to
           handle logistical questions related to the CPP process. A review of emails provided by
           these mailboxes found mostly general and logistical inquiries from the applicants. A
           senior Treasury official noted an informal policy of forwarding email inquiries to the
           general CPP email box. During the course of our review, one regulator forwarded


                                                                 11
           inquiries related to CPP institutions directly to SIGTARP for inclusion in the study, while
           another regulator included emails in a written inquiry log.

       •   Oral Communications (Telephone Conversations and Meetings). SIGTARP received
           varying levels of documentation of phone calls and in-person meetings in response to our
           data request for external communications related to TARP. Three of the four regulators
           provided documentation of instances of telephone communication with external parties
           regarding TARP recipients; however, one regulator did not provide details on the nature
           or content of the conversation. Moreover, Treasury officials noted that they had received
           calls regarding specific CPP applicants; however, they did not document those calls.
           Regarding in-person meetings, one regulator provided documentation of instances where
           staff members met with members of Congress about a CPP applicant. In the course of
           interviews with officials, SIGTARP became aware of an additional two meetings
           Treasury 10 and regulator staff held with Congressional staff regarding institutions.
           However, Treasury and the regulator did not provide documentation explaining the nature
           and content of the meetings.

From the letters, emails, and oral communication logs made available to SIGTARP, many
inquiries from external parties were requests for information on the status of individual
applications but also indicated support for the application, as in these four examples:

       •   “I am writing on behalf of one of my constituents…to express my support of their
           application for assistance and support under the Troubled Asset Relief Program.”
       •   “I urge you to give [Bank’s] application all due and prompt consideration.”
       •   “Our office would like to encourage your agency to give [the Bank’s] application full and
           fair consideration.”
       •   “I respectfully request that the [FBA] give appropriate consideration to this application
           within the program guidelines.”

For various reasons related to the lack of documentation of oral communications, SIGTARP
cannot be certain it obtained all Treasury and FBA communications regarding CPP institutions.
Because an attempt to influence the process could occur via undocumented phone calls or in-
person meetings, this lack of documentation significantly limits the extent to which SIGTARP
may have captured all instances of potential external contacts.

To understand better how many senior officials were communicating with external parties about
CPP applicants, SIGTARP interviewed the current and former Treasury Secretaries, the former
Assistant Secretary of Financial Stability, and the heads of three of the four regulators. For the
most part, each of the leaders commented that they did not think there was any undue influence
on the decision-making process within their respective organizations. One senior regulator stated
that he has never felt undue pressure to lobby in favor of a specific CPP institution, and no
official stated that he or she received any inquiries regarding a specific applicant that they
deemed inappropriate.

10
     Based on available information, this meeting was not with officials from the Office of Financial Stability.

                                                            12
While Guidelines Restricting Lobbyist Influence over TARP Not
Yet Issued, ARRA Guidelines Could Serve As a Model
On January 27, 2009, Treasury announced the development of new rules to increase transparency
and curtail potential lobbyist influence over the TARP decision-making process. The Secretary
of Treasury told SIGTARP that, when he took office, he called for such guidance out of concern
over media stories about the potential for external influence to affect decisions. He noted,
however, that other issues had consumed Treasury’s time and taken precedence over completing
the guidance.

At the time of our study, Treasury was still in the process of finalizing its draft policy limiting
external communications regarding TARP. A Treasury official stated that the Treasury approval
(and subsequent submission to the White House) of this draft policy is awaiting White House
approval on similar lobbyist guidelines submitted for American Recovery and Reinvestment Act
(“ARRA”) funds. A Treasury official stated that Treasury’s draft policy for TARP funds is
similar to the ARRA policy. The TARP policy will state that Treasury employees cannot talk to
lobbyists or members of the Congress, with one exception—instances of overarching policy
discussions.

On April 24, 2009, Treasury issued interim guidance that established protocol for oral and
written communication with any persons external to the federal government regarding ARRA
funds. Specifically, the interim guidelines for ARRA funds require Treasury employees to
determine if they are communicating with federally registered lobbyists about the use of ARRA
funds for a specific project or application. If they are communicating with a lobbyist regarding a
specific use of funds, the employee should end the conversation and request a written submission
of the inquiry. Treasury will post the written request on its public website. Communication not
related to the specific use of ARRA funds is permitted; however, Treasury will still document the
conversation, the name of the lobbyist and participants, and will publicly post details of the
conversation on the Treasury website. Communication with lobbyists is not restricted in
instances concerning general questions about logistics or implementation, public oral
communications between officials and registered lobbyists at widely attended gatherings, or on
communications with officials regarding the administration of awarded grants.

The guidelines also require the documentation of each in-person or telephone conversation with
a registered lobbyist concerning ARRA policy matters. Treasury employees are required
immediately to complete and submit a form with the date of the contact, the name of the parties,
the name of the lobbyist’s client, and the content of the conversation to Treasury’s Ethics
Department. Treasury employees are also required to forward written communication from
federally registered lobbyists regarding specific projects, applications, or applicants.




                                                13
Although Most Decisions to Fund Applicants
Were Clear, Some Had Mitigating Factors
Available information gave little indication that external inquiries on CPP applications had
affected decision-making. SIGTARP identified 56 financial institutions that were the subject of
external communication with Treasury or regulatory officials related to TARP. From the 56
cases reviewed, SIGTARP did not identify any instances of external pressure having undue
influence during the application review process.

As of June 17, 2009, of the institutions about which inquiries were made, 29 percent of these
institutions had been funded, 21 percent were still pending, 47 percent were not awarded CPP
funds, and 3 percent did not apply for funding. Our analysis showed that 13 of the 16 funded
applications met all of the quantitative criteria established by Treasury. The remaining three
institutions did not meet all the CPP quantitative criteria, but were approved based on qualitative
mitigating factors considered by Treasury and banking agency officials. For example, one
application’s approval was contingent on the institution raising non-CPP capital to bring it to a
well-capitalized position; this condition was not unique to this institution. Another application’s
approval focused on the bank’s management plan to address an area of concern. One institution
had mitigating factors that were unique to the files reviewed by SIGTARP. As to that institution,
the files suggest that greater flexibility was used in approving that application than had been
accorded other applicants, but that the approval was consistent with applicable statutory
requirements and does not appear to have been the product of external influence during the
application review process. Table 4 summarizes the status of the 56 institutions, of which two
did not submit an application for CPP funds.

Table 4: Status of CPP Applications SIGTARP Reviewed Involving External
Inquiries

 Category                                         Number of Institutions   Percentage
 Applications Funded                                        16                29
 Applications Still Pending                                 12                21
 Applications Not Funded
   Withdrawn or Withdrawal Recommended                      19                34
   Institution Failed or Was Acquired                       7                 13
   Subtotal for Applications Not Funded                     26                47
 Institutions Did Not Apply for CPP                         2                 3
 Total                                                      56               100%
Source: SIGTARP analysis of Treasury and banking agencies’ data.
Note: Numbers affected by rounding.


The number of institutions that were the subjects of external inquiries identified by SIGTARP
was relatively small when compared with the entire volume of applications received by the FBAs
and Treasury. The number of financial institutions about which relevant external inquiries were
reported was only 2% of total CPP applications received as of March 31, 2009.


                                                     14
Funded CPP Applications Met Requirements or Had
Mitigating Factors for Missed Performance Ratios
Our analysis of the funded applications showed that 13 of the 16 met all of the criteria
established by the Treasury’s written guidance to the regulators. SIGTARP reviewed the case
documentation for each funded application and found that most of the applications met
examination ratings guidance, the four Treasury-established performance criteria, and the three
capital ratios listed on the case decision memo (“CDM”). However, SIGTARP found mitigating
factors affecting one institution that were unique among the ones it reviewed. SIGTARP’s
analysis indicated that discretion afforded this applicant in its approval was greater than accorded
other applications but still consistent with applicable statutory requirements.

Of the 16 funded institutions, 13 clearly met the requirements (CAMELS rating, performance
ratios, and capitalization levels) for presumptive approval, as defined in written Treasury
guidelines. As shown in Table 5, these 13 institutions were Category 1 institutions that met all
quantitative factors.

Table 5 – Analysis for 16 Funded Applications of the 56 Selected Institutions
                                   Number of
 Institution      Category         Unmet Ratios          CPP Council Vote
       1                 1                  0            Did Not Go to Council
       2                 1                  0            Did Not Go to Council
       3                 1                  0            Did Not Go to Council
       4                 1                  0            Did Not Go to Council
       5                 1                  0            Did Not Go to Council
       6                 1                  0            Did Not Go to Council
       7                 1                  0            Did Not Go to Council
       8                 1                  0            Did Not Go to Council
       9                1a                  0            4-0 Approval
       10                1                  0            4-0 Approval
       11                1                  0            4-0 Approval
       12                1                  0            4-0 Approval
       13                1                  0            3-0 Approvalb
       14                2                  1            4-0 Approvalc
       15                2                  1            4-0 Approval
       16               2                5         4-0 Approval
 Source: SIGTARP analysis of case decision memoranda, Investment Committee Meeting minutes,
 and CPP Council Meeting minutes provided by OFS, OCC, OTS, FDIC, and FRB; OFS, CPP
 Pipeline Report, April 1, 2009.

 Notes:
 a. According to written Treasury guidelines, this institution is a Category 1 institution because it
 had a composite 3 rating with acceptable performance ratios. However, according to a regulator,
 Treasury subsequently provided oral guidance mandating all composite 3-rated institutions be
 marked Category 2 to be reviewed by the CPP Council.
 b. One regulator abstained from voting because the limited time available to assess the institution.
 c. This institution was approved based on the condition to raise additional private capital.  


                                                                15
The viability of three cases—listed as Category 2 institutions in Table 5—was not as apparent.
Each of these applications failed to meet one or more performance criteria or capital ratio
thresholds for presumptive approval. Accordingly, the reviewers of these applications considered
mitigating factors as part of the recommendation for approval. Two of the three applications had
mitigating factors that were not unique to institutions that had an external inquiry:

   •   Mitigating Factor – Raising Additional Private Capital. One application’s approval
       was contingent on the institution raising additional capital to bring it to a well-capitalized
       position. Treasury’s application of this condition was not exclusive to this particular bank
       and was used at other times as well. Accordingly, SIGTARP does not have information
       that would indicate that the review of this institution’s application was impacted by
       external influence.

   •   Mitigating Factor – Consideration of Management’s Action Plan. Another
       application failed to meet an established threshold for one ratio by a de minimis amount;
       the institution’s approval focused on the bank’s management plan to address the weak
       ratio. The case decision memo noted that the bank had already sold underperforming
       assets, ramped up collection efforts for nonperforming loans, and strengthened
       underwriting standards. Consideration of an applicant’s plans to address areas of concern,
       such as the one raised for this institution, were not uncommon during Treasury’s review
       nor were they unique to institutions that had an external inquiry. Accordingly, SIGTARP
       does not have information that would indicate that review of this institution’s application
       was impacted by external influence.

One institution had some mitigating factors that were unique to the 16 funded applications that
SIGTARP reviewed. For this institution, its viability was assessed with applied-for TARP funds
taken into account contrary to the way that banks are typically analyzed pursuant to the Treasury
guidance. The institution reached the capitalization thresholds (identified by its regulator) only
after the consideration of a private capital investment, the inclusion of deferred tax assets as part
of the bank’s capital base, and the potential TARP investment. Without any of these elements
included in the bank’s capital, the institution had negative capital ratios at the time Treasury and
the regulators were reviewing its application for CPP funds. Without factoring in the CPP funds
into the calculations, the institution was still slightly below the minimum capitalization levels
communicated by the regulator to SIGTARP. This treatment suggests greater flexibility used in
approving that application than accorded other applicants, but still consistent with applicable
statutory provisions. Various documented statements in the institution’s CPP review file support
SIGTARP’s assessment:

   •   Investment Committee Meeting Minutes. “[Investment Committee Member A] stated
       that he was very concerned about this bank. [Investment Committee Member B]
       expressed concerns over the viability of the organization without TARP funds.”

   •   CPP Analyst Scorecard (Under Other Relevant Factors). “Undercapitalized.”

   •   Case Decision Memo. “The Bank is in a precarious financial position.”



                                                 16
Nonetheless, the institution was recommended for approval by the Investment Committee based
on the unanimous approval of the CPP Council and mitigating factors noted in the case decision
memo that included a corrective program agreed to by management, the fact that the institution
raised private capital outside of TARP, and that the institution met the criteria in Section 103 of
the Emergency Economic Stabilization Act of 2008 (“EESA”). Based on SIGTARP’s review, it
does not appear that the financial institution’s approval was based on external influence during
the application review process, but on mitigating factors, one of which was legally required to be
considered in the evaluation of its application. Indeed, failure to consider the relevant mitigating
circumstances might have resulted in a violation of EESA.


Majority of Applications with an External Inquiry Are Still
Pending or Did Not Receive CPP Funds
At the time of SIGTARP’s review, 12 of the 56 applications about which inquiries were made
were pending review at either the regulator or Treasury. Officials provided numerous reasons for
holding applications, which include:

     •   Results of the most recent regulatory examination had not arrived.
     •   The late release of term sheets for subchapter S corporations and mutual organizations
         caused delays. 11
     •   Conditions for raising additional outside capital needed to be met.
     •   Additional information from the applicant had not yet been provided.

One of the pending institutions from SIGTARP’s study actually had Treasury approval;
however, funding was pending based on satisfying a condition to raise an additional non-TARP
capital investment. A Treasury official stated that for pending applications that had been
approved with conditions, Treasury proceeds to fund the institution soon after the conditions are
satisfied.

Exactly half of the institutions that were reviewed in our study due to external inquiries did not
receive CPP funds. The majority of these institutions did not receive CPP funds because either
the regulators requested the withdrawal of the application or the institution withdrew voluntarily.
Regulators recommended withdrawal for cases where the institution was not considered viable
under the standards set forth by Treasury. Two institutions identified during our review of
external communications did not actually submit an application for CPP funds.




11
  An S Corporation is any U.S. bank, U.S. savings association, bank holding company, or savings and loan holding
company organized such that it is exempt from most Federal income taxes as they are passed through to the
shareholders. A mutual organization is a corporation that is owned by depositors which distributes income in
proportion to the amount of business that members do with the company. Due to the different term sheets required
for these institutions compared to public and private applicants, Treasury did not release guidelines until January 14,
2009, for S Corporations, and April 7 and 14, 2009, for mutual organizations.

                                                          17
Seven institutions in our study did not receive funds because they either failed or were acquired
while their applications were pending. Some of the external inquiries for these institutions
communicated a sense of urgency in the processing of their applications:

   •   “Given specific time-sensitive concerns facing the Bank, it has sought my assistance in
       obtaining an update on the status of its application.”
   •   “Constituent [is] requesting assistance on behalf of [the Bank that] applied for TARP
       funds to help banks deal with this financial emergency.”

Other options for failing institutions were discussed with regulators and Treasury. In one
meeting, a regulator, a Congressman, and the bank’s executives explored an option—presented
by the bank—that the use of CPP funds to keep the institution operating would cost less to the
government than resolution. The regulator elevated this option to Treasury, which rejected the
argument. The bank eventually failed.




                                                18
Conclusions and Recommendations
Conclusions
Treasury and the FBAs faced a difficult economic environment that necessitated a rapid launch
of the CPP. Nonetheless, the established process contains numerous internal controls that guard
against external influence. For the most part, controls are in place to limit the opportunity for
external parties to exert undue influence on CPP investment decisions. The multiple levels of
review and viability measures deployed in decision-making suggest a straightforward process
governed by objective criteria; however, to increase transparency, Treasury should provide a
more detailed and clearer record of how each Investment Committee member votes on each
TARP investment decision.

Controls were also in place to document and respond to most of the written correspondence
received by Treasury and the regulators from external parties; however, SIGTARP found that the
level of detail and documentation of oral communications with external parties varied across
Treasury and the regulators. The inconsistency in documenting these communications limits the
ability to comprehensively identify and understand all external inquiries regarding CPP
applications. SIGTARP believes that Treasury and the four regulators should ensure that they
maintain adequate records of the occurrence and nature of oral communications with external
parties regarding pending applications under the CPP and other similar TARP programs.
Knowing the existence or content of phone conversations or in-person meetings regarding CPP
recipients will provide another layer of transparency regarding the factors that are considered (or
not considered) when the regulators and Treasury are making CPP investment decisions.
Although Treasury’s draft policy is similar to the guidelines issued for ARRA funds, interim or
final rules regarding the documentation of external TARP communication have yet to be issued.

SIGTARP recognizes that the majority of CPP applications may already have been submitted to
regulators. Nevertheless, for applications remaining in the pipeline or for those subsequently
submitted prior to the application deadline, SIGTARP believes that management efforts to
address issues identified in this report would add additional credibility to the existing procedures
and could serve as a model for any similar TARP programs.


Recommendations
SIGTARP makes the following recommendations:

   1. To strengthen transparency related to the documentation of TARP decision-making,
      SIGTARP recommends that Treasury more explicitly document the vote of each
      Investment Committee member for all decisions related to the investment of TARP
      funds.

   2. To provide greater transparency over external inquiries regarding TARP funds,
      SIGTARP recommends that Treasury and each individual participating federal banking
      agency improve existing control systems to document the occurrence and nature of


                                                 19
external phone calls and in-person meetings about actual and potential recipients of
funding under the CPP and other similar TARP assistance programs to which they may
be part of the decision-making. The new or improved process should document the date
of the communication, the external party inquiring, the official receiving the call or
attending the meeting, the actual or potential TARP recipient that is the subject of the call
or meeting, and the purpose and content of the discussion. Treasury could use the
guidelines similar to the interim rules recently established by Treasury for lobbyist
communications regarding funds under the ARRA. Given the short timeframe remaining
for the approval and distribution of CPP funds, this recommendation extends to all
current and future TARP programs.




                                         20
Management Comments and Audit Response
SIGTARP received official written responses on this report from the Office of Financial Stability
(“OFS”), the Federal Deposit Insurance Corporation (“FDIC”), the Office of the Comptroller of
the Currency (“OCC”), and the Federal Reserve Board (“FRB”). The Office of Thrift
Supervision (“OTS”) did not provide written comments on this report. Copies of official
responses are included as appendices to this report.

In commenting on a draft of this report, OFS concurred with SIGTARP’s recommendations and
indicated that is in the process of implementing them. OCC stated that it plans to review and
adjust, as needed, its existing documentation methods to ensure they capture the details of oral
communications suggested by SIGTARP as part of the recommendation. FRB did not comment
on the recommendations in its official response, and OTS did not provide official written
comments on the report.

In responding to our recommendations, FDIC commented that a process for documenting
communications is in place and will consider whether additional enhancements are warranted to
address existing TARP applications. FDIC commented that SIGTARP favorably regarded its
documentation process. SIGTARP recognizes that the FDIC does have an existing process to
record the receipt of external communications but could improve its documentation by including
information on the nature and content of oral communications for current and future TARP
programs where regulators are part of the decision-making process.

Four of the respondents, either as part of their official written responses or as separate technical
comments, urged SIGTARP to remove an appendix from the report which included the names of
the 56 financial institutions identified by SIGTARP for this study that were the subjects of
external communications to either Treasury or regulatory officials regarding their participation in
the CPP. Some reasons cited for requesting the deletion of the appendix included:

   •    “Public disclosure of the names of the entities that have not received CPP funding would
       impair OFS’s ability to effectively pursue its mandate to stabilize the financial system
       through capital investments in viable financial institutions. Specifically, future CPP
       applicants could be discouraged from applying to the CPP for fear of public disclosure of
       their unsuccessful applications.”

   •   “Publishing the appendix would be imprudent because of the potential for causing
       significant harm to institutions that were denied—or were perceived to have been
       denied—TARP assistance… Such perception would erode confidence in the viability of
       the institution and could potentially lead to a run on the bank, ultimately causing it to
       fail.”

   •   “This potential for substantial harm is the very reason why supervisory information on
       the condition of banks is treated by statute as confidential information and protected from
       public disclosure by the Freedom of Information Act (“FOIA”)…”



                                                21
Three of the four agencies objecting to the public release of the institutions’ names referred to
exemptions of the FOIA, and one of those agencies also noted a citation from the Trade Secrets
Act. The cited FOIA exemptions shield information from public disclosure for reasons such as
the protection of financial information from a person that is privileged or confidential, or the
protection of bank information related to a regulatory examination, among other things. Two of
the agencies provided objections as part of their official responses, which can be found in
Appendices J and K of this report.

SIGTARP maintains that the goal of transparency would best be met by listing the names of the
56 institutions that were the subject of external communications. However, the concerns raised
by the regulators about the possible negative impact of such disclosure are serious. Although
SIGTARP is not necessarily in agreement with the regulators that including the names of the
institutions would cause the feared harm, from a legal and regulatory perspective, SIGTARP
believes it must defer to the regulators’ objections. Accordingly, this report does not include a
listing of the 56 institutions.




                                                22
Appendix A – Scope and Methodology
We performed the audit under authority of Public Law 110-343, as amended, which also
incorporates the duties and responsibilities of inspectors general under the Inspector General Act
of 1978, as amended. The audit’s specific objectives were to determine (1) the extent to which
Treasury and the banking agencies have controls to safeguard against external influence over the
Capital Purchase Program (“CPP”) decision-making process; and (2) any indications of external
parties having influenced CPP decision-making. We performed work at the Office of the
Comptroller of the Currency (“OCC”), Office of Thrift Supervision (“OTS”), Office of Financial
Stability (“OFS”), Department of the Treasury (“Treasury”) headquarters, Federal Deposit
Insurance Corporation (“FDIC”), and the Federal Reserve Board (“FRB”) headquarters in
Washington, D.C. The scope covered external inquiries regarding potential and actual CPP
applicants from October 2008 through March 2009. This performance audit was performed in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We completed our review
between February and July 2009. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.
To assess the extent to which controls are in place to safeguard against external influence, we
reviewed the policies, procedures, and processes used by OFS and the four banking regulatory
agencies to (1) control and document external communications (including written and oral
correspondence) and (2) document the decision-making process for approving CPP applications.
We also interviewed Treasury and regulatory officials within Congressional and public affairs
offices to understand the processes in place to respond to external inquiries regarding CPP
applicants. In addition, we interviewed the Treasury’s Ethics Division officer. To understand the
process for reviewing and approving CPP applications, we reviewed Treasury’s guidance to the
four banking regulatory agencies on evaluating CPP applications. We also interviewed program
officials of the four banking regulatory agencies and of OFS who were responsible for reviewing
and evaluating CPP applications to understand how they handled external inquiries about CPP
applications.
To assess the extent to which external parties may have influenced CPP investment decision-
making, we reviewed the status of CPP applications for 56 financial institutions that had an
external inquiry to either OFS or one of the banking regulatory agencies between October 2008
and March 2009. To identify external inquiries related to CPP applications, we requested all
written correspondence, logs recording oral communication, and emails between external parties
and OFS and the banking regulatory agencies. We also interviewed senior CPP program officials
with OFS and the banking regulatory agencies as well as members of the CPP Council and
Investment Committee to determine the extent they received and documented telephone inquiries
and meetings regarding CPP applications. We also interviewed the current and former Secretary
of the Treasury, the former Assistant Secretary for Financial Stability, and the heads of three of
the four federal banking agencies to understand the extent to which they received external
communications regarding specific CPP applications, and the extent to which they were involved
in the decision-making process. Based on the data request and interviews, we identified 56
financial institutions that had an external inquiry related or that appeared to be related to an
actual or potential CPP application (excluding process-related queries from the applicant).

                                               23
Limitations on Data
SIGTARP was unable to collect all related oral communication logs or emails from external
parties because (1) several key decision-makers in the early stages of the CPP process are no
longer at Treasury, (2) some federal banking agency and Treasury officials did not keep phone
logs of their telephone correspondence, and (3) not all regulators or Treasury documented
instances of in-person meetings with external parties.


Use of Computer-processed Data
To perform this audit, we used data provided by Treasury’s Assignment and Correspondence
Tracking System, the Federal Reserve’s Correspondence Control System, OTS’s Congressional
Affairs Tracking System, and FDIC’s Legislative Information Tracking System and
Congressional Correspondence System. The extent to which we captured the universe of external
inquiries is subject to the completeness of these systems and the compliance of its users to log
such information. SIGTARP observed Treasury and federal banking agency officials searching
these systems to understand the scope of what they collected and stored.

Treasury and the federal banking agencies relied on CAMELS ratings as a factor to assess
applications. These ratings rely on some computer-processed data to assess each financial
institution’s Capital, Asset quality, Management capability, Earnings quality and level, Liquidity
adequacy, and Sensitivity to market risk. We reviewed an FDIC Office of Inspector General
report that assessed the CAMELS rating system and found nothing material that would impede
its use as decision-making factor in assessing CPP applications.


Internal Controls
As part of the overall evaluation of the CPP decision-making process, we examined internal
controls related to the review, recommendation, approval, and withdrawal of CPP applications at
the regulators and Treasury. We also conducted an evaluation of documentation procedures
regarding external TARP communications and examined internal controls as they relate to
policies and procedures in place to ensure decision-making based on objectivity and not other
influences.


Prior Coverage
FDIC Office of Inspector General, Report No. EVAL-09-004, “Controls Over the FDIC’s
Processing of Capital Purchase Program Applications from FDIC-Supervised Institutions,”
March 2009.

Government Accountability Office, Report GAO-09-296, “Troubled Asset Relief Program:
Status of Efforts to Address Transparency and Accountability Issues,” January 2009.

Government Accountability Office, Report GAO-09-161, “Troubled Asset Relief Program:
Additional Actions Needed to Better Ensure Integrity, Accountability, and Transparency,”
December 2008.


                                                24
Appendix B – Review Rounds for CPP Process
Level and
Minimum # of
Reviewers         Type of Review             Approval Needed To Advance to Next Round


 FBA Region       Preparation and            Regional Approval – The regulator’s regional or district office must
  or District     approval of the case       recommend approval before submitting to the regulator’s Washington
    Office        decision memo              D.C. headquarters.



    FBA           Review of                  Headquarter Approval – The D.C.-based office must assess the viability
Headquarters      recommendation from        of the institution and recommend approval to send the Category 1
                  region and approval to     institutions to OFS and send Category 2 and 3 applications to the CPP
                  forward to CPP Council     Council.

 CPP Council      Meeting with               CPP Council Majority Vote – Although the CPP Council sends forward
                  representative from        any application on which it has voted, a Treasury official noted that
                  each FBA; institution’s    Treasury, in practice, does not approve applications that do not have
                  regulator presents case;   either a unanimous or 3-to-1 vote from the CPP Council. The CPP
                  Treasury                   Council must vote on the application and submit the application for
                  representatives            approval to Treasury. The CPP Council can send the application back
                  observing meeting and      to the previous level if questions remain regarding the institution’s
                  asking questions           viability.

  OFS CPP         Independent reviewers      CPP Team Analysts’ Decision – Once the application is sent forward to
  Analysts        and approver of case       Treasury, OFS’s CPP team performs another assessment of the
                  decision memos             institution in addition to what was provided by the documentation
                  provided by the FBAs       forwarded by the regulators. Two analysts review the case before a
                  for Treasury approval      third senior analyst approves it for presentation to the Investment
                                             Committee.

 Investment       Consensus meeting          Majority Approval by the Investment Committee – A minimum of three
 Committee        with a minimum of three    Investment Committee members must be present in order to provide
                  committee members          the final approval recommendation on a particular institution’s
                  and analysts presenting    application. Applications move forward with a minimum of 2-to-1 vote
                  cases; CPP analysts        for approval. During the Investment Committee, the members have the
                  presenting information     right to send the file back to the CPP analysts, the CPP Council, or the
                  and participating in       primary regulator to obtain clarification on the analysis provided by the
                  meetings                   CPP team or regulators.

  Assistant       Final approval required    Final Approval by the Assistant Secretary – Both regulator and Treasury
  Secretary       by Assistant Secretary;    officials stressed that only the Assistant Secretary approves the
                  Approval based on          application and that all decisions up to that point are recommendations
                  recommendation from        for approval. As of May 1, 2009, the Assistant Secretary has not gone
                  Investment Committee       against any approval recommendations forwarded by the Investment
                                             Committee.
Source: SIGTARP analysis of interviews with and documentation provided by OFS, OCC, OTS, FDIC, and FRB.
Notes: This table reflects the minimum number of reviews for an individual. Reviewers include both analysts
assessing the application as well as those senior officials that review and approve the recommendations provided by
the analysts. Some cases require additional levels of re-review based on the circumstances of the case.




                                                         25
Appendix C – Case Decision Memo Template




                     26
27
Appendix D – CPP Council Voting Record




                     28
Appendix E – Analyst Scorecard Template




                      29
Appendix F – Acronyms
Acronym   Definition
ARRA      American Recovery and Reinvestment Act
CAMELS    Capital adequacy, Asset quality, Management, Earnings,
          Liquidity, and Sensitivity to market risk
CDM       Case Decision Memorandum
CPP       Capital Purchase Program
CRA       Community Reinvestment Act
D.C.      District of Columbia
EESA      Emergency Economic Stabilization Act of 2008
FBA       Federal Banking Agency
FDIC      Federal Deposit Insurance Corporation
FRB       Federal Reserve Board
OCC       Office of the Comptroller of the Currency
OTS       Office of Thrift Supervision
OFS       Office of Financial Stability
RFI       Risk management, Financial condition, Impact of parent
          company and non-depository entities on subsidiary depository
          institutions
SIGTARP   Special Inspector General for the Troubled Asset Relief
          Program
TARP      Troubled Asset Relief Program




                                        30
Appendix G – Audit Team Members
This report was prepared and the review was conducted under the direction of Barry W. Holman,
Audit Director, Office of the Special Inspector General for the Troubled Asset Relief Program.

The staff members who conducted the audit and contributed to the report include:

Anne G. Blank

Michael Kennedy

Philip Mastandrea




                                              31
Appendix H – Management Comments – OFS




                    32
Appendix I – Management Comments – FDIC




                    33
Appendix J – Management Comments – OCC




                    34
Appendix K – Management Comments – FRB




                    35
36
37
SIGTARP Hotline
If you are aware of fraud, waste, abuse, mismanagement, or misrepresentations affiliated with the
Troubled Asset Relief Program, please contact the SIGTARP Hotline.

By Online Form: www.SIGTARP.gov

By Phone: call toll free (877) SIG-2009

By Fax: (202) 622-4559

By Mail:                 Hotline: Office of the Special Inspector General
                         for the Troubled Asset Relief Program
                         1801 L Street NW
                         Washington, D.C. 20220

Press Inquiries
For media inquiries, please contact our Press Office:
Kristine Belisle
Communications Director
Kris.Belisle@do.treas.gov
202-927-8940

Legislative Affairs
For Hill inquiries, please contact our Legislative Affairs Office:
Lori Hayman
Legislative Affairs Director
Lori.Hayman@do.treas.gov
202-927-8941

Obtaining Copies of Testimony and Reports
To obtain copies of testimony and reports please log on to our website: www.sigtarp.gov 




                                                   38
